HHS/OIG, Audit - "Additional Benefits Offered Medicare Enrollees For
The Period January 1 Through December 31, 2000 - M-Care, Ann Arbor, Michigan,"
(A-05-01-00089)
Department
of Health and Human Services
"Additional Benefits Offered Medicare Enrollees For The Period January
1 Through December 31, 2000 - M-Care, Ann Arbor, Michigan," (A-05-01-00089)
October 29, 2002
Complete Text of Report is available in PDF format
(407 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
M-Care provided managed care services under two Medicare+Choice contracts,
the Senior Plan and Senior Plan Prestige, to Medicare beneficiaries in southeastern
Michigan.  Although M-Care provided additional benefits as proposed in
its Adjusted Community Rate Proposal (ACRP) and advertised in its marketing
brochures, our review disclosed problems with understated and overstated costs
in the ACRP.  We also found accounting and payment errors made during the
contract year that had some effect on the value that Medicare enrollees received.
These errors had a negative impact on M-Care and on Medicare enrollees.
In CY 2002, M-Care discontinued the Senior Plan Prestige and drastically reduced
the prescription drug cap, from $1,200 to $200 under the Senior Plan.
Medicare enrollees now have fewer choices and prescription drug coverage is
minimal.